                                                         Guam Realignment
                                                         Comprehensive Oversight Plan




                                                                 Interagency Coordination Group
                                                                 of Inspectors General	




 Department of Defense Office of Inspector General
              400 Army Navy Drive
              Arlington, VA 22202

Department of the Interior Office of Inspector General
       1849 C Street, N.W. Mail Stop 4428
             Washington, D.C. 20240

 This document is available online at: www.dodig.mil
                                                                              [Fiscal Year 2010]
Additional copies of this Oversight Plan can be obtained by contacting:

                 Office of the Deputy Inspector General for Auditing
                 Attn: Corporate Planning Branch
                 Room 801
                 400 Army Navy Drive
                 Arlington, VA 22202-2884

                 (703) 604-9142 (DSN 664-9142)

This plan is also available on our Web site at:

http://www.dodig.mil/audit/guam/index.htm

If you need additional information from the following agencies, please contact them
directly.

 Department of Homeland Security Office of Inspector General
 (202) 254-4100
 http://www.dhs.gov/oig

 Department of the Interior Office of Inspector General
 (202) 208-5512
 http://www.doioig.gov/

 Naval Audit Service
 (202) 433-5757
 http://www.hq.navy.mil/NavalAudit/

To obtain copies of Naval Audit Service reports, please use the following contact
information:

   Phone: (202) 433-5757
   Fax: (202) 433-5921
   Email: NAVAUDSVC.FOIA@navy.mil
   Mail: Naval Audit Service
         Attn: FOIA
         1006 Beauty Place, SE
         Washington Navy Yard, DC 20374-5005


[June 4, 2010]
                         Message from the Chairman,
                       Interagency Coordination Group

        I am pleased to provide the first annual Interagency Coordination Group of Inspectors
General for Guam Realignment oversight plan to the Congressional Defense Committees, the
Secretary of Defense, and the Secretary of the Interior. The National Defense Authorization Act
for Fiscal Year 2010, section 2835 (Public Law 111-84), requires the chairperson of the
Interagency Coordination Group to prepare an annual oversight plan detailing planned audits and
investigations related to the Guam realignment.

       The Guam Realignment Comprehensive Oversight Plan identifies and incorporates the
planned and ongoing Guam realignment initiatives of the Inspectors General of the Department
of Defense, Department of the Interior, and Department of Homeland Security; and the Auditor
General of the Naval Audit Service for FY 2010.

        I recently returned from a visit to U.S. Pacific Command and U.S. Forces Japan including
military installations in Okinawa and Guam. Based on my personal observations and briefings
by knowledgeable officials, I want to inform you of my concerns.

    • Substantial Guam infrastructure shortcomings fall outside of DOD funding authority and
      could adversely impact the realignment. These concerns need to be addressed with
      additional non-DOD funding and interagency planning and execution.

    • Housing requirements of military families in Okinawa should be resolved at this time and
      not be held in abeyance while negotiations with Japan continue. Based on available data,
      45 percent of 6,986 family units need attention and 1,129 units are considered inadequate
      because of mildew, mold, and failing infrastructure.

    • Competing priorities and the number of contractors available could adversely impact the
      realignment.

       As required by section 2835, the Interagency Coordination Group will update this
oversight plan annually.


                                              Sincerely,



                                         Gordon S. Heddell
                                          Inspector General
                                        Department of Defense
                                   FOREWORD
       The Interagency Coordination Group of Inspectors General for Guam Realignment is
pleased to present the Initial Comprehensive Oversight Plan for Guam.

        The Fiscal Year 2010 National Defense Authorization Act (Public Law 111-84),
section 2835, “Interagency Coordination Group of Inspectors General For Guam Realignment,”
October 28, 2009, requires the Interagency Coordination Group to conduct, supervise, and
coordinate audits and investigations of the treatment, handling, and expenditure of amounts
appropriated or otherwise made available for military construction on Guam; and of the
programs, operations, and contracts carried out using such funds, including:

       (A) the oversight and accounting of the obligation and expenditure of such funds;
       (B) the monitoring and review of construction activities funded by such funds;
       (C) the monitoring and review of contracts funded by such funds;
       (D) the monitoring and review of the transfer of such funds and associated information
           between and among departments, agencies, and entities of the United States and
           private and nongovernmental entities;
       (E) the maintenance of records on the use of such funds to facilitate future audits and
           investigations of the use of such funds; and
       (F) the monitoring and review of the implementation of the Defense Posture Review
           Initiative relating to the realignment of military installations and the relocation of
           military personnel on Guam.

       Additionally, section 2835 requires the chairperson of the Interagency Coordination
Group to prepare an annual oversight plan detailing the planned audits and reviews related to the
Guam realignment.

        Congress established the Interagency Coordination Group to provide objective
supervision of audits and investigations, to include inspections, evaluations, and reviews relating
to the programs and operations funded with amounts appropriated or otherwise made available
for military construction on Guam. In addition to providing oversight, the Interagency
Coordination Group considers the significant challenges that will arise throughout the course of
the military realignment to ensure sufficient infrastructure is in place to support the military and
citizens of Guam.

        The Interagency Coordination Group will continue its efforts to coordinate oversight
plans through existing interagency working groups and councils in order to provide transparency
and accountability to the American people and to the U.S. forces affected by this realignment.
Table of Contents
Oversight and Accounting of Obligations and Expenditures

       Planned Projects..…………………………...…………………………………………....1

Monitoring and Review of Construction Activities

       Planned Projects ………………………...………………………………………….........2

       Ongoing Projects…..…………………………………………………………………......3

Monitoring and Review of Contracts

       Planned Projects…………………………….……………………………………………4

Monitoring and Review of Japan Funds

       Planned Projects………………………………………………………………………….5

Maintenance of Records on Use of Funds

       Ongoing Projects…………………………...…………………………………………….6

Monitoring and Review of the Implementation of the Defense Posture Review Initiative

       Planned Projects………………………………………………………………………….7

       Ongoing Projects….………………………………………………………………….......8

Other Related Guam Coverage

       Planned Projects…..……………………………………………………………………...9

       Ongoing Projects….…………………………………………………………………….10

Completed Projects…...………………………………………………………………………...11



                               Oversight Coordination
The National Defense Authorization Act requires that we conduct audits in the areas as shown in
the Foreword and the Table of Contents. As shown in the plan, some audits will cover common
areas of interest. For those common areas of interest, we will coordinate to avoid duplication of
efforts.
Oversight and Accounting of Obligations and Expenditures

PLANNED PROJECTS

Inspector General, Department of Defense

        Obligations and Expenditures for the Guam Realignment. Objective: To determine
whether DOD properly obligated and expended Guam realignment funds. Specifically, we will
determine whether DOD can accurately identify and report obligations and expenditures for the
Guam realignment. We will also determine whether DOD is properly maintaining supporting
documentation.




                                                 1
Monitoring and Review of Construction Activities

PLANNED PROJECTS

Inspector General, Department of Defense

       Military Construction Requirements for Defense Posture Review Initiative. 1∗
Objective: To determine whether the military construction projects meet end-user requirements,
Leadership in Energy and Environmental Design Silver requirements, and construction
standards; and are in accordance with applicable Federal and DOD laws and regulations.

Inspector General, Department of Homeland Security

        U.S. Citizenship and Immigration Services’ Adjudication of Petitions for
Nonimmigrant Workers (I-129 Petition). Objective: To determine whether U.S. Citizenship
and Immigration Services’ adjudications of Petitions for Nonimmigrant Workers (Form I-129)
are being conducted in accordance with established policies and procedures and address fraud
detection and national security concerns.




1
 The start dates for the military construction audits are contingent upon the approval of the Environmental Impact
Statement.
∗
    We will coordinate to avoid duplication of efforts.


                                                            2
Monitoring and Review of Construction Activities

ONGOING PROJECTS

Inspector General, Department of Defense

        Adequacy of Medical Facility Planning Guam (D2010-D000LF-0113.000). Objective:
To evaluate the adequacy of plans to accommodate increased healthcare requirements in Guam
as a result of the base closure actions in Okinawa, Japan.

Naval Audit Service

        Department of the Navy Fiscal Year 2012 Military Construction Projects Related to
the U.S. Marine Corps’ Relocation from Okinawa, Japan, to Guam
(N2010-NIA00-0075.000). ∗ Objective: To verify that project scope requirements for selected
military construction projects related to the U.S. Marine Corps’ Okinawa/Guam base relocation
are valid and sufficiently supported.

       Department of the Navy’s Execution of the Environmental Impact Statement for the
U.S. Marine Corps’ Relocation from Okinawa, Japan, to Guam (N2010-NIA000.0076.000).
Objective: To verify that the Department of the Navy has sufficient controls and management
oversight in place to ensure the Environmental Impact Statement remains on schedule and
Environmental Impact Statement requirements for military construction will be met for the
U.S. Marine Corps’ relocation to Guam.




∗
    We will coordinate to avoid duplication of efforts.


                                                          3
Monitoring and Review of Contracts

PLANNED PROJECTS

Inspector General, Department of Defense

       Military Construction Contracts for Guam Realignment. 2∗ Objective: To determine
whether the military construction contracts were awarded in accordance with Federal Acquisition
Regulations and require contractors to conform to applicable laws, regulations, and standards.

        Request for Proposal of the Design-Build Multiple Award Construction Contract.
Objective: To evaluate the requirements identified in the Request for Proposal. Specifically, we
will determine if requirements for the two projects included in the Request for Proposal are
supported and funded. In addition, we will evaluate these projects to assess if they represent the
type of projects to be awarded as task orders under the Multiple Award Construction Contract.




2
 The start dates for the military construction audits are contingent upon the approval of the Environmental Impact
Statement.
∗
    We will coordinate to avoid duplication of efforts.




                                                            4
Monitoring and Review of Japan Funds

PLANNED PROJECTS

Inspector General, Department of Defense

        Defense Financial and Accounting Service-Indianapolis Processes for Monitoring
and Investing the Government of Japan Direct Cash Distributions related to the
U.S. Marine Corps Relocation in Guam. Objective: To determine whether internal controls
over funds provided by the Government of Japan to support the relocation of U.S. Marine Corps
troops from Okinawa, Japan, to Guam are adequate. Specifically, we will assess the
effectiveness of the Defense Financial and Accounting Service-Indianapolis’ internal controls
over collections, disbursements, interest earned, and reporting of these direct cash contributions.




                                                     5
Maintenance of Records on Use of Funds

ONGOING PROJECTS

Inspector General, Department of Defense

       Internal Controls Over Repayment of Special Purpose Entity Funds for the Guam
Realignment (D2010-D000FC-0161.000). 3 Objective: To determine whether DOD has
developed procedures for tracking and calculating the repayment of funds financed by the
Special Purpose Entities Fund for the construction and maintenance of housing and utilities in
Guam. Specifically, we will determine whether the necessary internal controls are in place to
ensure accurate and timely repayment amounts.




3
 This audit is related to both the monitoring and review of Japan funds and to the maintenance of records on the
use of Japan funds.


                                                            6
Monitoring and Review of the Implementation of the Defense
Posture Review Initiative

PLANNED PROJECTS

Inspector General, Department of Defense

        Third Marine Expeditionary Force Training Opportunities After Relocation to
           ∗
Guam. Objective: To determine whether the training requirements for Third Marine
Expeditionary Force after moving to Guam can be met with the limited land space available, or if
the training requirements will have to be conducted elsewhere.




∗
    We will coordinate to avoid duplication of efforts.




                                                          7
Monitoring and Review of the Implementation of the Defense
Posture Review Initiative

ONGOING PROJECTS

Inspector General, Department of Defense

        U.S. Marine Corps Small Arms Accountability at Activities Relocating as Part of the
Defense Posture Review Initiative (D2010-D000FC-0133.000). Objective: To determine the
accuracy of the U.S. Marine Corps Small Arms Registry data for weapons held at activities
relocating to Guam, and to assess the internal control processes in place to maintain
accountability of the small arms during relocation.

       Military Family Housing in Okinawa, Japan (D2010-D000LA-0191.000). Objective:
To assess the living conditions of military families in Okinawa.

Naval Audit Service

       Consideration of Requirements for U.S. Marine Corps Training Ranges Associated
with the Relocation of U.S. Marine Corps Forces to Guam (N2009-NIA000-0116.000). ∗
Objective: To verify that requirements for U.S. Marine Corps training ranges are being
appropriately addressed in the planning for the relocation of U.S. Marine Corps Forces to Guam.

       Quality of Life Plans for U.S. Marine Corps Forces Relocating from Okinawa,
Japan, to Guam (N2010-NIA000-0117.000). Objective: To verify that: (1) the Department of
the Navy has adequate quality of life plans for U.S. Marine Corps forces relocating from
Okinawa, Japan, to Guam; and (2) there is effective oversight to ensure the quality of life plans
meet standards and leadership expectations.




∗
    We will coordinate to avoid duplication of efforts.




                                                          8
Other Related Guam Coverage

PLANNED PROJECTS

Inspector General, Department of Defense

        Development of Program and Contractual Infrastructure for the Guam Relocation.
Objective: To assess the development of program and contractual technical requirements for the
Guam Relocation. Specifically, we will assess program and contractual technical requirements
for required infrastructure. Infrastructure assessed will included harbor, roads, power production
and transmission, drinking water, waste water/solid, and communications.

Inspector General, Department of the Interior

       Guam Public Safety Programs. Objective: To evaluate existing programs in the Guam
Homeland Security and Guam Police Department, and assess efforts to prepare for a growing
population.

       Guam Power Authority. Objective: To examine Guam Power Authority’s ability to
properly account for the maintenance and condition of key infrastructure.




                                                    9
Other Related Guam Coverage

ONGOING PROJECTS

Naval Audit Service

        Verification of Operational Capabilities and Internal Controls at Joint Region
Marianas (N2010-NIA000-0112.000). Objective: To verify that operational capabilities and
internal controls over joint basing practices are effectively planned and implemented at Joint
Region Marianas.

        Implementation of Shipping Agreements for Guam Contracts. Objective: To verify
that the Department of the Navy is sufficiently implementing established DOD shipping
agreements for Guam, and to verify that the Department of the Navy has controls in place to
efficiently monitor shipping requirements in military construction contracts on Guam.




                                                   10
Completed Projects
Naval Audit Service

      Department of the Navy’s Processes Used to Establish Water Rates for Guam
Waterworks Authority (N2009-0024), April 7, 2009

      Verification of an Acquisition Strategy for the U.S. Marine Corps Relocation Effort
(N2009-0028), May 8, 2009

        Status of the Department of the Navy Processes and Controls Regarding the Management
of the Government of Japan Funds Related to the U.S. Marine Corps' Relocation (N2009-0038),
July 9, 2009

      Ocean Bills of Lading for Naval Facilities Engineering Command Marianas Contracts
(N2009-0047), September 16, 2009

      Department of the Navy Acquisition Checks and Balances at Naval Base Guam
Supported Activities (N2009-0050), September 30, 2009

       Department of the Navy Proposed Fiscal Year 2011 Military Construction Projects
Related to the U.S. Marine Corps’ Okinawa/Guam Base Relocation (N2009-0051),
September 30, 2009




                                                  11
                                                         Guam Realignment
                                                         Comprehensive Oversight Plan




                                                                 Interagency Coordination Group
                                                                 of Inspectors General	




 Department of Defense Office of Inspector General
              400 Army Navy Drive
              Arlington, VA 22202

Department of the Interior Office of Inspector General
       1849 C Street, N.W. Mail Stop 4428
             Washington, D.C. 20240

 This document is available online at: www.dodig.mil
                                                                              [Fiscal Year 2010]
